OIG Investigative Reports, DC 2011 - District Man Pleads Guilty To Charges In Failed Scheme to Deceive a Federal Judge Was Attempting to Obtain a $3 Million Default Judgment in Civil Lawsuit
Skip to main contentAbout UsContact UsFAQs Language Assistance Englishespañol中文: 繁體版Việt-ngữ한국어TagalogРусский
U.S. Department of Education
Search for:
Toggle navigation
U.S. Department of Education
Student Loans
Grants
Laws
Data
About ED
OFFICES
Home
Reports & Resources
Programs/Initiatives
News
Office Contacts
Investigation Report
U.S. Department of Justice
RONALD C. MACHEN JR.
United States Attorney for the
District of Columbia
Judiciary Center
555 Fourth Street, NW
Washington, D.C. 20530
FOR IMMEDIATE RELEASE
Tuesday, February 8, 2011
For Information Contact:
Public Affairs
(202) 252-6933
District Man Pleads Guilty To Charges In Failed Scheme to Deceive a Federal Judge Was Attempting to Obtain a $3 Million Default Judgment in Civil Lawsuit
WASHINGTON - David Copeland-Jackson, 37, of Washington, D.C., pled guilty today
to federal charges stemming from a plot to deceive a federal judge into awarding him a $3
million default judgment in a civil lawsuit, announced U.S. Attorney Ronald C. Machen Jr. and
James W. McJunkin, Assistant Director in Charge of the FBI's Washington Field Office.
Copeland-Jackson, a convicted sex offender, was attempting to win the judgment in a
defamation suit against one of his victims. The plot was unraveled and he never got the money.
He pled guilty in U.S. District Court for the District of Columbia to a charge of conspiracy
to commit obstruction of justice and perjury for carrying out the ruse.
In a separate, unrelated scheme that involved more than $62,000 in student financial aid,
Copeland-Jackson pled guilty to mail fraud. Both pleas were made before the Honorable Judge
Richard J. Leon, who scheduled Copeland-Jackson’s sentencing for May 12, 2011.
Copeland-Jackson has been detained since July 9, 2009, when he was arrested on the
conspiracy charge. He faces a statutory sentence of up to five years in prison on the conspiracy
charge and a maximum sentence of 20 years on the mail fraud charge, and a fine of up to
$250,000 for each offense. Under terms of a plea agreement to resolve both charges, the
Government and defendant agreed that an appropriate sentence would be 51 to 63 months.
Peter J. Brandel Sr., 71, of Mansfield, Ohio, and Copeland-Jackson’s co-conspirator in the
obstruction-of-justice scheme, also has pleaded guilty to conspiracy to commit obstruction of
justice and perjury. He is awaiting sentencing by Judge Leon. Under the terms of Brandel’s plea
agreement, the parties agreed an appropriate sentence would be 24 to 30 months in prison.
According to the Statement of Offense filed by the U.S. Attorney’s Office with the
Court, Copeland-Jackson was convicted in Ohio in 2000 on charges of gross sexual imposition
against two 14-year-olds. After serving three years in an Ohio prison for the offense, Copeland-
Jackson was paroled to his hometown, Washington, D.C., and ordered not to have any contact
with the victims of his earlier crimes.
However, while on parole, in June 2007 Copeland-Jackson filed a $3 million defamation
suit in U.S. District Court for the District of Columbia against one of the two victims, a male
identified in the Statement of Offense only as “J.C.”
The lawsuit was assigned to U.S. District Judge Ellen S. Huvelle. Rather than serve J.C.
with a copy of the lawsuit, as required, Copeland-Jackson filed a false affidavit with Judge
Huvelle. The affidavit - signed by Brandel - claimed that J.C. had been served with the suit.
Without J.C.’s knowledge, for more than a month, Copeland-Jackson then filed numerous
pleadings for both himself, as plaintiff, and for J.C., as defendant, in the case.
On August 8, 2007, Judge Huvelle awarded a $3 million default judgment against J.C. to
Copeland-Jackson. The judge took this action after receiving a document, purportedly from J.C.,
in which J.C. admitted the allegations in the lawsuit and consented to the judgment.
Judge Huvelle was unaware that Copeland-Jackson had gone to prison in Ohio for the very
acts that were the supposed subject of the defamation lawsuit. The Ashland County prosecutor in
Ohio subsequently alerted the judge that Copeland-Jackson was on parole for having molested
J.C. when he was a minor. At that point, Judge Huvelle immediately vacated the default
judgment and set a hearing on the matter for August 16, 2007.
According to the Statement of Offense, at the hearing, Brandel testified falsely under oath
that he had served a copy of the Copeland-Jackson lawsuit on J.C.
The mail fraud scheme took place between 2005 and 2009. Copeland-Jackson fraudulently
obtained more than $62,000 in federal student financial aid by enrolling three relatives and five
former inmates in college courses at online universities and then collecting their student aid
checks. That case was investigated by the Office of Inspector General, U.S. Department of
Education, and the Washington Division of the U.S. Postal Inspection Service.
Copeland-Jackson falsified certain material information about the individuals purportedly
entitled to the financial aid. He falsely listed his own address as that of the phony student, thus
causing the student aid checks to be mailed directly to his apartment in the District of Columbia.
In announcing the guilty plea, U.S. Attorney Machen and Assistant Director in Charge
McJunkin commended the work of the Special Agents from the Washington Field Office who
investigated the conspiracy case.
U.S. Attorney Machen was joined by Steven Anderson, Special Agent in Charge, Office of
Inspector General, U.S. Department of Education, and Keith A. Fixel, Acting Postal Inspector in
Charge, U.S. Postal Inspection Service - Washington Division, in commending those who
investigated the mail fraud scheme. They cited Special Agent Jason Williams, of the Office of
Inspector General, U.S. Department of Education, and U.S. Postal Inspectors Christopher
Saunders and Steven Watai.
U.S. Attorney Machen and the other officials also praised those who worked on the
matters from the U.S. Attorney’s Office, including Legal Assistant Jamasee Lucas, and
Paralegals Diane Hayes, Tasha Harris and Mary Treanor. They acknowledged the work of
former Assistant U.S. Attorney James A. Mitzelfeld, who investigated and obtained an
indictment in the case, and Assistant U.S. Attorney Jonathan Haray, who is currently prosecuting
the case.
11-44
Printable view
Last Modified: 02/09/2011
How Do I Find...
Student loans, forgiveness
College accreditation
No Child Left Behind
FERPA
2015 Budget Proposal
FAFSA
More >
Information About...
Transforming Teaching
Family and Community Engagement
Early Learning
K-12 Reforms
More >
Connect
Facebook
Twitter
YouTube
Email
RSS
Google+
More >
MISUSED
FOIA
OIG Fraud Hotline
Our mission is to promote student achievement and preparation for global competitiveness by fostering educational excellence and ensuring equal access.
Student Loans
Repaying Loans
Defaulted Loans
Loan Forgiveness
Loan Servicers
Grants & Programs
Apply for Pell Grants
Grants Forecast
Open Grant Competitions
Find Grant Programs by Eligibility
Laws & Guidance
No Child Left Behind
IDEA
Civil Rights
Significant Guidance
Data & Research
Education Statistics
Integrated Postsecondary Education Data System
Nation's Report Card
What Works Clearinghouse
About Us
Contact Us
Jobs
News
FAQs
Budget, Performance
Notices FOIAPrivacySecurityInformation qualityInspector GeneralWhitehouse.govUSA.govBenefits.govRegulations.gov